          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

Management of the Department's
Isotope Program




DOE/IG-0709                       November 2005
REPORT ON THE MANAGEMENT OF THE DEPARTMENT'S ISOTOPE
PROGRAM



TABLE OF
CONTENTS


                Production of Research and Development Isotopes


                Details of Finding ......................................................................1

                Recommendations .....................................................................8

                Comments ..................................................................................9


                Appendices


                1. Objective, Scope, and Methodology..................................11

                2. Prior Reports ......................................................................13

                3. Management Comments ....................................................16
PRODUCTION OF RESEARCH AND DEVELOPMENT ISOTOPES


Research and           Dating back to the Atomic Energy Act of 1954, the
Development Isotopes   Department of Energy's (Department) predecessor
                       agency, the Atomic Energy Commission, was authorized to
                       distribute stable and radioactive isotopes at no charge to
                       assist and encourage research on peaceful uses of isotopes
                       involving medical therapy. More recently, the 1990 Energy
                       and Water Appropriations Act consolidated all isotope
                       production and distribution activities under one Department
                       Program and established a revolving fund for the Isotope
                       Program. Congress authorized this fund to, among other
                       things, produce isotopes for use in research and
                       development (R&D). Furthermore, the Isotope Program
                       established an internal goal to "provide a reliable supply of
                       quality products and services based on customers' needs."
                       One of the objectives to support this goal is to "maintain
                       the existing customer base and enhance customer
                       satisfaction."

                       Our review disclosed that the Department was not
                       adequately supporting production of isotopes needed for
                       R&D and was not always effectively managing the Isotope
                       Program. As noted by researchers, and as bolstered by a
                       number of unfilled requests for research isotopes and
                       ongoing criticisms by independent experts, the Department
                       could better serve the needs of the research community.

                                      Scheduled Isotopes Production

                       The Department had not provided researchers from
                       domestic medical centers with the isotopes they needed to
                       conduct planned research. Research isotopes were not
                       provided despite commitments to do so as conveyed
                       through the Department's annual production plan, For
                       example, Copper-67, which is used to destroy targeted
                       tumors as cancer therapy and for lung cancer research, was
                       scheduled for production in Fiscal Year (FY) 2004.
                       However, we found that Copper-67 was not actually
                       produced. According to a researcher who expressed an
                       interest in this isotope and whose research was peer-
                       reviewed by the National Cancer Institute, his clinical trials
                       for cancer therapy using Copper-67 were not conducted
                       because the isotope was unavailable. The researcher stated
                       that Copper-67 cannot be obtained elsewhere in the activity
                       and purity level needed. The researcher was told by a



_______________________________________________________________
Page 1                                          Details of Finding
_______________________________________________________

                      Department official that the new Isotope Production
                      Facility at Los Alamos National Laboratory was supposed
                      to provide this isotope in 2005, but production had been
                      cancelled. In addition to interest by this researcher, there
                      were six other domestic and foreign requests for this
                      isotope during FY 2004 that could not be accommodated.

                      As another example, the Department did not produce Iron-
                      52 that was scheduled for production in FY 2003. One of
                      this isotope's potential uses is to prepare bone marrow for
                      transplant. A researcher interested in this isotope stated
                      that he could not conduct his proposed research project
                      because the isotope was not available from the Department.
                      We were told that the Brookhaven Linac Isotope Producer
                      at Brookhaven National Laboratory is the only domestic
                      source of Iron-52. While foreign supplies are available,
                      they are not viable because of the isotope's rapid decay.

                                          Unfulfilled Requests

                      In addition to not providing isotopes that were included in
                      its annual, peer-reviewed production schedule, the
                      Department was unable to respond to about 250 other
                      requests for research isotopes by domestic and foreign
                      researchers during FYs 2002 through 2004. Of the 250
                      requests, there were:

                        •   18 requests for Selenium-75. This isotope is a
                            gamma radiography source that can be used for both
                            medical and industrial imaging;

                        •   13 requests for Technecium-95M, which is a tracer
                            used in high-level radioactive waste R&D; and,

                        •   7 requests for Iron-55, which is used as a tracer in
                            iron absorption and retention nutrition studies.

                      In addition to these formal requests, the Isotope Program
                      Director stated that the Program is receiving frequent
                      requests for other research isotopes that it will be unable to
                      fulfill, including Actinium, Lutetium, and Barium. For
                      example, the Department is at its production limit for
                      Actinium, and the Director stated that the Program would
                      sell more of this isotope if more could be produced.




_______________________________________________________________
Page 2                                          Details of Finding
_______________________________________________________

                                         Independent Reviews

                      As early as 1998, a series of independent reviews, several
                      of which were commissioned by the Department,
                      demonstrated that the Department did not fully support
                      production of research isotopes and had not adequately
                      served the needs of the research community. In spite of
                      recommendations for production-related changes, formal
                      actions to address the situation have not been taken.
                      Examples of these independent reviews include the
                      following:

                        •   A 1998 Expert Panel review, convened at the
                            direction of the Department, found that research
                            isotopes for promising new nuclear medicine products
                            are frequently unavailable or very expensive;

                        •   An April 2000 Nuclear Energy Research Advisory
                            Committee report noted that difficulties experienced
                            by researchers resulting from a lack of isotopes or
                            high costs associated with isotopes in their research
                            are significant and ongoing. The problem was
                            especially apparent in a number of medical research
                            programs that have been terminated, deferred, or
                            seriously delayed by a lack of isotope availability.
                            This review was also commissioned by the
                            Department;

                        •   A May 2002 American Chemical Society position
                            paper criticized the Department's recent payment and
                            pricing changes in the operation of its Isotope
                            Program, citing that these changes will make it
                            virtually impossible for researchers to purchase the
                            Department's isotopes, result in much higher isotope
                            costs, and impede the development of new isotope
                            applications;

                        •   A February 2005 Society of Nuclear Medicine report
                            stated that while the Department had, in the past,
                            played an important role in supplying isotopes to
                            researchers, the Department's production capability
                            had been severely compromised over the years for
                            several reasons, including changes in the operating
                            regime; and,



_______________________________________________________________
Page 3                                          Details of Finding
_______________________________________________________

                              •   A March 2005 American Nuclear Society report
                                  stated that the Department's new pricing and
                                  production policies have resulted in a decline of
                                  its Isotope Program and a failure to meet its
                                  traditional role in isotope production, particularly
                                  in supplying isotopes used in research and
                                  development.

Program Management       These issues occurred, in large part, because of problems
Policies and Practices   with Isotope Program management policies and practices.
                         Specifically, the Department:

                              •   Did not adequately address recognized production
                                  problems during the Isotope Program planning
                                  process;

                              •   Adopted pricing and payment policies that
                                  exacerbated production problems and made it
                                  very difficult, if not impossible, for the research
                                  community to purchase the Department's isotopes;
                                  and,

                              •   Expended resources that could have been used to
                                  boost or supplement production by maintaining
                                  unused or underutilized production facilities.

                                             Planning Practices

                         The Department's planning practices did not give adequate
                         consideration to meeting the Nation's need for research
                         isotopes. Specifically, although the Department prepares
                         an annual Isotope Program Plan which identifies
                         programmatic issues, it did not develop detailed corrective
                         action plans to address and/or mitigate these problems. For
                         example, the FY 2004 and 2005 Isotope Program Plans
                         acknowledged that the Isotope Program's policies
                         negatively affected the production and sale of research
                         isotopes.

                         While the Isotope Program has taken some interim steps, it
                         did not suggest or document a course of action to address
                         fundamental policy issues. Furthermore, the Department
                         did not ensure that the Isotope Program developed
                         performance measures to assess its core activity – isotope
                         production. There were no Isotope Program-specific
                         performance measures in the Congressional Budget or the

_______________________________________________________________
Page 4                                          Details of Finding
_______________________________________________________

                      Department's Performance and Accountability Report for
                      which the Isotope Program was held accountable. While
                      the Isotope Program had a number of internal measures,
                      none measured actual isotope production and/or the Isotope
                      Program's ability to fulfill a certain percentage of requests
                      for research isotopes. Also, there was no clear linkage
                      between these internally-developed performance goals,
                      objectives, and measures, and those contained in the
                      Isotope Program's financial statements and the
                      Congressional budget.

                                     Pricing and Payment Policies

                      In FY 2003, the Department deviated from its traditional
                      vendor-purchaser policies which included billing at the
                      time of shipment and collection within 30 days. Instead,
                      the Department adopted an advance payment policy,
                      covering the amount of an entire isotope batch, before
                      production could begin. These policy changes occurred in
                      response to Department actions to restrict the Isotope
                      Program's appropriation to maintaining infrastructure,
                      leaving no working capital for isotope production. Once
                      these policies took effect, researchers experienced
                      difficultly purchasing isotopes from the Department. Some
                      researchers could not order isotopes because their
                      universities were prohibited by law from paying in
                      advance. Other researchers could not pay until they
                      received grant funds. The practical effect of the
                      Department's policies was to impair the researchers' ability
                      to purchase the isotopes by forcing them to pay for an
                      entire batch of isotopes, rather than the small amounts they
                      requested.

                      After the implementation of the batch pricing policy, the
                      sales price of certain research isotopes more than doubled
                      in order to cover the full cost of production. For example,
                      the price of Copper-67 increased from $480 per unit in FY
                      2002 to $1,240 per unit in FY 2003, an increase of nearly
                      160 percent. The price of Actinium-225, during this same
                      time period, increased from about $580 to $1,203 per unit,
                      an increase of over 100 percent. Despite the negative
                      impact these policies had on the research community, the
                      Department did not fully consider alternatives to the
                      advance payment and batch pricing policies such as the
                      pooling of funds (researcher or university associations or
                      consortiums) or waiving the upfront payment.

_______________________________________________________________
Page 5                                          Details of Finding
_______________________________________________________

                               Maintaining Isotope Production Facilities

                      The Department is also consuming scarce resources that
                      could be dedicated to research isotope production by
                      maintaining unused or underutilized facilities. Specifically:

                           •   The Annular Core Research Reactor and hot cell
                               facility at Sandia National Laboratories were
                               modified from 1995 to 1999 at a budgeted cost of
                               about $40 million, but have never been used by
                               the Isotope Program. However, the Isotope
                               Program continues to maintain them at a cost of
                               about $1.8 million per year.

                           •   The Calutrons at Oak Ridge National Laboratory
                               have not been used since 1998, over seven years.
                               According to the Oak Ridge Isotope Program
                               Manager, the standing order within Nuclear
                               Energy is that the over fifty-year old Calutrons
                               will never operate again. Furthermore, despite an
                               Office of Inspector General audit recommendation
                               in November 2002, the Isotope Program had not
                               formally assessed alternatives to the Calutrons
                               and continued to maintain them at a cost of about
                               $1.4 million annually.

                           •   The Isotope Production Facility (IPF) has not
                               been fully utilized since it was commissioned and
                               approved to start operations in October 2003. The
                               IPF, which was constructed, in part, to support
                               production of medical and research isotopes, has
                               only been able to make three of the ten isotopes
                               planned for the first production run because the
                               Department did not develop the necessary targets.
                               Furthermore, the IPF is dependent on the
                               operation of the Los Alamos Neutron Science
                               Center (LANSCE) that, according to our report,
                               The Los Alamos Neutron Science Center
                               (DOE/IG-0666, November 2004), is becoming
                               unreliable and may not be capable of running
                               effectively in the future. The Headquarters
                               Isotope Program Director indicated that LANSCE
                               will most likely be shut down in FY 2008, and
                               when this occurs, the IPF will no longer be a
                               viable production facility. The Program spends
                               about $1.7 million annually to maintain the IPF,

_______________________________________________________________
Page 6                                          Details of Finding
_______________________________________________________

                               and plans to conduct target development work in
                               FY 2005 and beyond to produce additional
                               isotopes.

                      Officials from Headquarters and all three isotope
                      production sites agree that the current Isotope Program
                      policies have suppressed orders for research isotopes.
                      Specifically, officials acknowledged that recent price
                      increases have made isotopes unaffordable for many
                      researchers. Furthermore, officials also agreed that many
                      researchers are unable to pay for isotopes in advance as
                      currently required. As such, many universities and
                      researchers no longer purchase isotopes from the
                      Department. In addition to direct acknowledgement by
                      Isotope Program officials, the Department's 2005 Isotope
                      Program Plan recognized that the Isotope Program is
                      unable to meet the needs of the medical community for
                      short-lived isotopes, and that the current structure of the
                      Isotope Program has had a "severe chilling effect on several
                      promising areas of medical research in the United States."

Impacts on Research   The audit disclosed that the Department is not providing
                      the needed research isotopes that may lead to future
                      breakthroughs in the diagnosis and treatment of various
                      cancers and other life-threatening diseases. This concern
                      was confirmed by a number of independent research
                      entities and, in reality, by the Department's own analysis.

                      According to the FY 2005 Isotope Program Plan, if the
                      Department could produce a reliable supply of certain
                      isotopes, there would be immediate use for them in medical
                      research with some moving to clinical trials and widespread
                      application. However, in light of the potential, future
                      shutdown of its newest accelerator facility, the
                      Department's difficulties in producing a reliable supply of
                      medical and research isotopes are likely to continue, or
                      worsen, if action is not taken. Further exacerbating this
                      problem, the National Cancer Institute and the Society of
                      Nuclear Medicine expect there to be a dramatic increase in
                      the use of medical isotopes by the research community for
                      a broad range of efforts. The Department also continues to
                      expend scarce resources maintaining production facilities
                      that may no longer be needed to meet the programmatic
                      mission. As much as $4.9 million of these funds could be
                      better utilized to subsidize research isotope production or to
                      waive the advance payment policy.

_______________________________________________________________
Page 7                                          Details of Finding
_______________________________________________________


Program Sponsored    To their credit, the Headquarters Isotope Program Director
Corrective Actions   indicated that some "temporary fixes" have been
                     implemented to alleviate the negative impacts that current
                     policies have had on the production and sale of research
                     isotopes. For example, the Isotope Program has been
                     importing isotope targets from foreign sources and working
                     more closely with individuals from the Missouri University
                     Research Reactor and the National Institutes of Health to
                     help support isotope production. However, the Director
                     acknowledged that these actions will neither fix the policy
                     issues nor be effective, long-term solutions.


RECOMMENDATIONS      We recommend that the Acting Director, Office of Nuclear
                     Energy, Science and Technology:

                          1. Ensure that processes are in place to address
                             and/or mitigate issues identified during the
                             Isotope Program planning process;

                          2. Re-evaluate the advance payment and batch
                             pricing policies to consider the impact on the
                             research community and on isotope sales;

                          3. Establish quantifiable performance measures for
                             isotope production; and,

                          4. Determine whether the Isotope Program's
                             remaining infrastructure has a viable mission with
                             the Department and make plans to:

                                   •   Maintain, upgrade, or acquire facilities
                                       that are essential to the programmatic
                                       missions; or,

                                   •   Shut down facilities that are deemed to
                                       no longer be needed.




_______________________________________________________________
Page 8                                          Recommendations
_______________________________________________________

MANAGEMENT AND       The Acting Director, Office of Nuclear Energy, Science
AUDITOR COMMENTS     and Technology, generally concurred with the overall
                     conclusions in the report. Management agreed with
                     recommendation 2 to reevaluate its advance payment and
                     batch pricing policies and recommendation 5 to continually
                     assess its infrastructure, but disagreed with the other
                     recommendations. To further discuss management's
                     concerns, we met with the Isotope Program officials on
                     October 12, 2005. Their specific comments related to their
                     concerns, followed by our responses, are detailed below.

                     Management Comment: Management partially agreed with
                     recommendation 1 to ensure that processes are in place to
                     address and/or mitigate issues identified during the Isotope
                     Program planning process. Specifically, management
                     commented that it was aware of the shortage of research
                     isotopes, but did not believe the issue was simply planning
                     processes, but also a question of who should financially
                     support the production of research isotopes. Management
                     emphasized that it was working to establish a financial
                     agreement with the National Institutes of Health to support
                     isotope production and hoped it could establish similar
                     agreements with other agencies. Management added that
                     the issue of isotope availability would be addressed by the
                     National Academy of Sciences in a study planned for FY
                     2006. During our subsequent discussion, management
                     agreed planning processes are important, but felt that the
                     Isotope Program already has adequate processes in place.
                     Management stated that the more appropriate
                     recommendation would be to re-evaluate the Isotope
                     Program's current policies.

                     Auditor Comment: We are encouraged by management's
                     actions to address and/or mitigate issues that affect isotope
                     production. We acknowledge that management is aware of
                     problems facing the Isotope Program, such as policy issues,
                     and has taken interim steps to resolve them including
                     working with the National Institutes of Health. However,
                     we did not find the Isotope Program's planning processes to
                     be adequate. For example, management could not
                     demonstrate how its planning process addressed known
                     issues or when corrective steps would be completed
                     through specific action plans.

                     Management Comment: Management disagreed with
                     recommendation 3 to establish quantifiable performance

_______________________________________________________________
Page 9                                                Comments
_______________________________________________________

                     measures for isotope production. Management believed
                     that appropriate production performance measures were
                     already in place. As examples, management quoted current
                     measures to ensure production schedules are met 90 percent
                     of the time and to limit rejected and reworked products to 5
                     percent of the production output.

                     Auditor Comment: We agree that the Isotope Program has
                     a number of internal measures that address specific
                     production attributes at the site-level. However, the Isotope
                     Program does not have an overall, program-level
                     performance measure that evaluates its success at serving
                     the needs of the research community that is clearly linked
                     to its financial performance and budget request.

                     Management Comment: Management stated that they
                     agreed with recommendation 4 to discontinue target
                     development efforts at the Isotope Production Facility (IPF)
                     but, in subsequent discussions, indicated that they did not
                     plan to discontinue this effort. Management explained that
                     the IPF targets could be used in the Brookhaven Linac
                     Isotope Producer if LANSCE was shut down and would be
                     available for the IPF if the shutdown did not occur. In the
                     October 12, 2005, meeting, management told us that in July
                     2005, the Isotope Program decided to re-engineer the target
                     holders at Brookhaven Linac Isotope Producer to accept the
                     new targets being developed for the IPF. The benefit to
                     BLIP is that the new targets achieve higher isotope yields.

                     Auditor Comment: Given this new development, we have
                     deleted this recommendation from our report.

                     Management comments are included in their entirety as
                     Appendix 3.




_______________________________________________________________
Page 10                                               Comments
Appendix 1

OBJECTIVE             To determine whether the Department is effectively and
                      efficiently managing the Isotope Program.


SCOPE                 We conducted the audit from October 2004 to
                      November 2005 at Department of Energy Headquarters;
                      Oak Ridge National Laboratory (Oak Ridge) in Oak Ridge,
                      TN; Brookhaven National Laboratory (Brookhaven) in
                      Upton, NY; and Los Alamos National Laboratory (Los
                      Alamos) in Los Alamos, NM.


METHODOLOGY           To accomplish the audit objective, we:

                           •   Discussed management of the Isotope Program
                               with officials from Headquarters, Oak Ridge,
                               Brookhaven, and Los Alamos;

                           •   Obtained information from the Isotope Reference
                               Information System with assistance from Isotope
                               Business Office officials, to determine the number
                               of unfilled requests for research isotopes;

                           •   Contacted researchers from domestic medical
                               centers who were interested in purchasing
                               isotopes from the Department between FY 2003
                               and 2004;

                           •   Reviewed the Isotope Program's financial
                               statements and other documentation to determine
                               the uses of the most frequently unfilled research
                               isotope requests;

                           •   Reviewed prior Office of Inspector General,
                               Government Accountability Office, and other
                               independent reviews concerning the Department's
                               Isotope Program;

                           •   Reviewed performance related information,
                               including the FYs 2002 through 2004
                               Congressional Budgets and Performance and
                               Accountability Reports, to determine compliance
                               with the Government Performance and Results
                               Act of 1993;



_______________________________________________________________
Page 11                           Objective, Scope, and Methodology
Appendix 1 (continued)

                           •   Reviewed applicable Federal regulations,
                               Departmental Orders, and Isotope Program
                               policies, procedures, and planning documents;
                               and,

                           •   Analyzed isotope sales prices during FYs 2002
                               through 2004.

                      The audit was performed in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Accordingly, the
                      audit included reviews of Department and regulatory
                      policies, procedures, and performance measures related to
                      management of the Department's Isotope Program. We
                      assessed performance measures in accordance with the
                      Government Performance and Results Act of 1993 and
                      concluded that the Isotope Program did not develop
                      performance measures covering its core activity of isotope
                      production, as noted in the report. Because our review was
                      limited, it would not necessarily have disclosed all internal
                      control deficiencies that may have existed at the time of our
                      audit. Since computer-processed data was not the primary
                      support to meet our objective, we performed a limited
                      assessment of data reliability.

                      The exit conference was held with management on
                      November 1, 2005.




_______________________________________________________________
Page 12                           Objective, Scope, and Methodology
Appendix 2

                                  PRIOR REPORTS

Office of Inspector General Reports

   •   The Los Alamos Neutron Science Center (DOE/IG-0666, November 2004). This
       audit concluded that the ability of the Los Alamos Neutron Science Center
       (LANSCE) to provide needed research capabilities in the future is uncertain.
       Increasing reliability problems, coupled with the lack of a long-term plan
       detailing funding and mission priorities, increased the risk that LANSCE may not
       be capable of operating effectively in the future. These issues occurred because
       the National Nuclear Security Administration and the Department's Executive
       Council have yet to complete the analysis necessary to determine whether the
       facility has a viable future mission.

   •   Calutron Isotope Production Capabilities (DOE/IG-0574, November 2002). This
       audit concluded that the Department may not be able to ensure the availability of
       a full range of stable isotopes if the calutrons were dismantled. Despite the
       assertions by management that the calutrons were no longer needed because
       alternative sources were available, the audit disclosed that current inventories of
       some stable isotopes are insufficient to cover future needs; and, no proven
       domestic alternative capabilities are currently available to replace the calutrons.
       Furthermore, the Department's strategy included reliance on isotopes supplied by
       Russia. This strategy carries with it a number of risks which need to be carefully
       considered in the decision-making process. Therefore, the audit recommended
       that dismantlement of the equipment be suspended until a reliable and fully
       demonstrated alternative source of stable isotopes is obtained.

Government Accountability Office Reports

   •   Nuclear Science: DOE's Self-Supporting Isotope Program is Experiencing
       Problems (GAO/RCED-92-122FS, June 1992). This audit concluded that the
       Department is experiencing difficulties in operating its isotope sales program on a
       self-supporting basis. For example, since 1990, the Isotope Program's operating
       costs have exceeded revenues. Foreign competition and high operating costs have
       been the primary factors discouraging the Isotope Program's self-sufficient
       operation. United States isotope users are concerned that the Department's
       commitment to operating the Program on a self-sufficient basis may limit the
       domestic availability of certain isotopes if they cannot be produced
       cost-effectively.

Other Reports

External committees, societies, and expert panels have conducted numerous reviews of
the Department's Isotope Program. Below is a sampling of such reviews from the past
several years:


_______________________________________________________________
Page 13                                            Prior Reports
Appendix 2 (continued)

    •   The US National Isotope Program: Current Status and Strategy for Future
        Success (American Nuclear Society, March 2005). Overall, this report found
        that the United States' isotope program is in a state of crisis, and immediate
        action is needed to address the major program issues. The issues specifically
        related to the Department include: (1) research and development (R&D)
        isotopes are not available at reasonable prices due to declining resources and
        policy changes; (2) elimination of R&D funding is impacting development of
        future isotope applications; and, (3) leadership is needed to reverse the decline
        of the Isotope Program.

    •   National Radionuclide Production Enhancement (NRPE) Program: Meeting
        Our Nation's Need for Radionuclides (Society of Nuclear Medicine, February
        2005). The review found that new radioisotopes for diagnostic and therapeutic
        uses are not being developed as the national radioisotope infrastructure is
        chronically under-funded at the Department. New and innovative nuclear
        medicine treatments will require reliable supplies of domestic radionuclides.
        However, the majority of radionuclides used in daily applications today are
        imported on a daily basis, and those required for innovative research are either
        available sporadically and only in limited quantities or not at all. In response to
        these challenges, the task force proposed that Congress should realign current
        radionuclide resources to create an NRPE Program to improve the production of
        radionuclides in the United States.

    •   The Nuclear Chemistry and Technology Division of the American Chemical
        Society Urges the Maintenance of a Healthy Isotope Program at DOE
        (American Chemical Society, May 2002). This position paper stated that two
        planned changes to the Department's Isotope Program will jeopardize the future
        development of radionuclides in nuclear and biomedical research. The first
        change is to discontinue the funding of the Advanced Nuclear Medicine
        Initiative which supported peer-reviewed research in nuclear medicine. The
        second change discussed was the Department's plan to require advance
        payments for development and production of radionuclides. The position paper
        stated that it will be extremely difficult, if not impossible, for researchers to pay
        in advance because they typically cannot commit to cash outlays until grants are
        issued and the money received. If operated as proposed, this paper stated that
        important research would come to an end and suggested that the advance
        payment provision be rescinded.

    •   Final Report: Nuclear Energy Research Advisory Committee, Subcommittee for
        Isotope Research & Production Planning (April 2000). Overall, the review
        found that recent levels of Federal appropriations have not permitted the
        Department's isotope supply to keep pace with the changing needs of the
        research community, and the limited availability of specific radionuclides is a
        constraint on the progress of research.



_______________________________________________________________
Page 14                                            Prior Reports
Appendix 2 (continued)

    •   The Future of Stable Isotope Production in the United States (JUPITER
        Corporation, April 15, 1999). This study concluded that small isotope
        separators using electromagnetic, plasma separation and AVLIS technologies
        will play a role in providing the future United States stable isotope production
        capability. Together, these three technologies have the potential to exceed the
        production capabilities of the Department's Calutrons at substantially reduced
        costs.

    •   Forecast Future Demand for Medical Isotopes (Expert Panel Review,
        September 25-26, 1998). The Expert Panel concluded that the Department and
        the National Institutes of Health must develop the capability to produce a
        diverse supply of radioisotopes for medical use in quantities sufficient to
        support research and clinical activities. Such a capability would prevent a
        shortage of isotopes, reduce American dependence on foreign radionuclide
        sources, and stimulate biomedical research. The Expert Panel recommended
        that the United States Government build this capability around either a reactor,
        an accelerator, or a combination of both technologies as long as isotopes for
        clinical and research applications can be supplied reliably, with diversity in
        adequate quantity and quality.




_______________________________________________________________
Page 15                                            Prior Reports
Appendix 3




_______________________________________________________________
Page 16                                   Management Comments
Appendix 3 (continued)




_______________________________________________________________
Page 17                                   Management Comments
Appendix 3 (continued)




_______________________________________________________________
Page 18                                   Management Comments
                                                             IG Report No. DOE/IG-0709

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
